Report No. DODIG-2013-062                   March 28, 2013




   Policies and Procedures Needed to Reconcile Ministry
   of Defense Advisors Program Disbursements to Other
                      DoD Agencies
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                  Department of Defense Office of Inspector General
                  Office of the Deputy Inspector General for Auditing
                  ATTN: Audit Suggestions/13F25-04
                  4800 Mark Center Drive
                  Alexandria, VA 22350-1500




Acronyms and Abbreviations
FMR                           Financial Management Regulation
MABP                          Management Analysis Briefing Package
MIPR                          Military Interdepartmental Purchase Requests
MoDA                          Ministry of Defense Advisors
U.S.C.                        United States Code
                                    INSPECTOR GENERAL

                                   DEPARTMENT OF DEFENSE

                                   4800 MARK CENTER DRIVE

                                ALEXANDRIA, VIRGINIA 22350-1500



                                                                                     March 28, 2013

MEMORANDUM FOR DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR
                PARTNERSHIP STRATEGY AND STABILITY OPERATIONS

SUBJECT: Policies and Procedures Needed to Reconcile Ministry of Defense Advisors
         Program Disbursements to Other DoD Agencies
         (Report No. DODIG-2013-062)

We are providing this report for review and comment. This is the second in a series of reports on
the Ministry of Defense Advisors program. In 2009, DoD developed the pilot Ministry of Defense
Advisors program to support a pool of civilians capable of building ministerial capacity in
Afghanistan. However, program officials did not develop adequate procedures to reconcile actual
to estimated deployed civilians’ costs. A reconciliation of $3.6 million in disbursements showed
potential overpayments of $124,195 and potential underpayments of $318,892 to DoD agencies. We
considered management comments on the draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from the
Deputy Assistant Secretary of Defense for Partnership Strategy and Stability Operations were
partially responsive. Therefore, we request additional comments on Recommendation 1.a-b, and 2.a
by April 29, 2013.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file containing
your comments to audjsao@dodig.mil. Copies of your comments must have the actual signature of
the authorizing official for your organization. We are unable to accept the /Signed/ symbol in place
of the actual signature. If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8905
(DSN 664-8905).




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                               for Auditing

cc:
Under Secretary of Defense (Policy)
 Assistant Secretary of Defense for Special Operations and Low Intensity Conflict
 Director, Defense Security Cooperation Agency
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Report No. DODIG-2013-062 (Project No. D2012-D000JB-0209)                    March 28, 2013

               Results in Brief: Policies and Procedures
               Needed to Reconcile Ministry of Defense
               Advisors Program Disbursements to Other
               DoD Agencies
                                                            •	 potentially underpaid 13 MIPRs

What We Did                                                    by $318,892.

In 2009, DoD developed the Ministry of
Defense Advisors (MoDA) pilot program to                 The remaining 34 MIPRs did not require
support a pool of civilians capable of building          adjustment. Without taking corrective action,
ministerial capacity in Afghanistan. Between             MoDA program officials risk augmenting
FY 2010 and FY 2012, MoDA program officials              MoDA’s or other DoD agencies’ appropriations,
reimbursed other DoD agencies for some of the            which could result in Antideficiency Act
deployed civilians’ costs, to include premium            violations.
pay, backfilling the vacant position, and training
costs. Our audit objective was to determine              What We Recommend
whether MoDA program officials established               The Deputy Assistant Secretary of Defense for
adequate controls over the distribution of funds         Partnership Strategy and Stability Operations
to other DoD agencies.                                   should:
                                                             •	 update policy and develop and
What We Found                                                    implement procedures to obtain actual-
MoDA program officials did not develop                           cost data and reconcile funds disbursed
adequate controls over the distribution of funds                 through MIPRs for deployed advisors’
to other DoD agencies for deployed civilians’                    premium pay, backfill, and
premium pay, backfill, and training costs.                       training costs; and
Instead, program officials relied on other DoD               •	 reconcile prior disbursements to
agencies to ensure $19.3 million in estimated                    actual costs and adjust the final payment
costs for 118 military interdepartmental                         amount, as appropriate.
purchase requests (MIPR) issued in FY 2010 to
FY 2012 were adjusted to the final payment               Management Comments and
amounts.                                                 Our Response
                                                         Comments from the Deputy Assistant Secretary
This occurred because MoDA program officials             of Defense for Partnership Strategy and Stability
did not develop and implement policies and               Operations were partially responsive and
procedures to obtain actual-cost data, perform           additional comments are required. Please see
reconciliations, and adjust final payments made          the recommendations table on the back of this
to DoD agencies. As a result, for $3.6 million           page.
disbursed through 56 MIPRS, MoDA program
officials:
    • potentially overpaid 9 MIPRs
        by $124,195, and


                                                     i
Report No. DODIG-2013-062 (Project No. D2012-D000JB-0209)        March 28, 2013

Recommendations Table

         Management                     Recommendations          No Additional
                                      Requiring Comment        Comments Required
Deputy Assistant Secretary of      1.a-b, 2.a               2.b
Defense for Partnership Strategy
and Stability Operations

Please provide comments by April 29, 2013.




                                             ii
Table of Contents

Introduction                                                            1


     Objective                                                          1

     Background                                                         1

      Review of Internal Controls                                       2


Finding. MoDA Program Officials Did Not Develop Adequate Controls Over the 

Distribution of Funds to Other DoD Agencies                            3


     Estimated Cost and Reimbursement Process                           3

     Program Officials Relied on Other DoD Agencies to Determine
           Final Payment Amounts                                        4

     Policies and Procedures Needed to Reconcile Actual Costs to
           Final Payment Amounts                                        4

     Increased Risk of Augmented Appropriations                         5

     Recommendations, Management Comments, and Our Response             7


Appendixes

       A. Scope and Methodology                                        9

           Use of Computer Processed Data                              9

             Prior Coverage                                           10 

       B. Potential Adjustments to Military Interdepartmental 

             Purchase Requests                                        11 

       C. Unreconciled Military Interdepartmental 

             Purchase Requests                                        12


Management Comments
    Deputy Assistant Secretary of Defense for Partnership Strategy

         and Stability Operations                                     15 

Introduction
Objective
This is the second in a series of reports on the Ministry of Defense Advisors (MoDA)
program. The first report found MoDA program officials did not establish a performance
management framework for assessing the effectiveness of the program. 1 The audit
objective for this report was to determine whether MoDA program officials developed
adequate controls over the distribution of funds to other DoD agencies. For this report, we
refer to “other DoD agencies” as DoD organizations that employ civilian volunteers or
provide deployment training. See Appendix A for a discussion of the audit scope and
methodology and prior audit coverage.

Background
In 2008, senior DoD officials identified a need to develop an internal DoD capacity to
provide institutional, ministerial training and advisory support to our partner nations. In
anticipation of the growing importance of capacity building, DoD officials developed two
complementary pilot programs: the Defense Institution Reform Initiative and MoDA.
DoD officials developed the MoDA pilot program to support a pool of civilians capable of
building ministerial capacity in Afghanistan. We also issued a report on the Defense
Institution Reform Initiative program. 2

MoDA Program
In 2009, DoD officials designed the MoDA program to forge long-term relationships with
a partner nation’s ministry of defense by matching senior civilians to partner-identified
requirements. To prepare for deployment, civilians attend 7 weeks of extensive training in
an operational environment and obtain instruction on culture, language, advisory skills,
personal security, and civilian-military coordination. MoDA program officials stated that
as of October 2012, 109 civilians had been deployed to Afghanistan. 3

MoDA program officials cited 10 U.S.C. § 2571, “Interchange of Supplies and Services,”
as their authority to reimburse other DoD agencies in advance for the deployed civilians’
premium pay, 4 backfilling the vacant position, and training costs. MoDA program officials
execute these transactions using the DoD overseas contingency operations appropriation.




1
  Report No. DODIG-2013-005, “Performance Framework and Better Management of Resources Needed by

the Ministry of Defense Advisors Program,” October 23, 2012.

2
  Report No. DODIG-2013-019, “Defense Institution Reform Initiative Program Elements Need to Be

Defined,” November 9, 2012.

3
  Once deployed, civilians work under the direction of the Commander, North Atlantic Treaty Organization

Training Mission-Afghanistan/U.S. Combined Security Transition Command-Afghanistan.

4
  Premium pay consists of danger, post differential, night, Sunday premium, and overtime pay.


                                                    1

On December 31, 2011, DoD officials received congressional authority through Public
Law 112-81, “National Defense Authorization Act of FY 2012,” section 1081, “Authority
for Assignment of Civilian Employees of the Department of Defense as Advisors to
Foreign Ministries of Defense,” to establish a formal program that deploys civilians to
other partner nations. This authority expires September 30, 2014.

Roles and Responsibilities
The Office of the Under Secretary of Defense (Policy), Assistant Secretary of Defense for
Special Operations and Low Intensity Conflict, is responsible for providing policy
guidance on foreign defense institution building. Within the Office of the Assistant
Secretary of Defense, the Deputy Assistant Secretary of Defense for Partnership Strategy
and Stability Operations is responsible for overseeing the development of DoD institution-
building capabilities, to include the MoDA program. From FY 2010 to FY 2012, MoDA
program officials were responsible for recruiting, training, and deploying civilians to
Afghanistan. In addition, program officials, in coordination with the Office of the Under
Secretary of Defense (Policy) Resource Management Office, were responsible for
reimbursing various costs to other DoD agencies for deployed civilians’ premium pay,
backfilling vacant positions, and training using military interdepartmental purchase
requests (MIPR). 5 On October 1, 2012, MoDA program management responsibilities were
transitioned to the Defense Security Cooperation Agency.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. MoDA program officials did not develop
and implement policies and procedures to obtain actual-cost data, perform reconciliations,
and adjust final payments made to other DoD agencies. We will provide a copy of the
report to the senior official responsible for internal controls at the office of the Deputy
Assistant Secretary of Defense for Partnership Strategy and Stability Operations.




5
  MIPRs are used to execute financial transactions for interagency and intra-agency support, where an
activity needing supplies or services obtains them from another activity through direct citation or fund
reimbursement.

                                                       2

Finding. MoDA Program Officials Did Not
Develop Adequate Controls Over the
Distribution of Funds to Other DoD Agencies
Ministry of Defense Advisors (MoDA) program officials did not develop adequate controls
over the distribution of funds to other DoD agencies for deployed civilians’ premium pay,
backfill, and training costs. Instead, program officials relied on other DoD agencies to
ensure $19.3 million in estimated costs for 118 MIPRs issued between FY 2010 and
FY 2012 was accurately adjusted to the final payment amounts. This occurred because
MoDA program officials did not develop and implement policies and procedures to obtain
actual-cost data, perform reconciliations, and adjust final payments made to other DoD
agencies. As a result, for $3.6 million disbursed through 56 MIPRS, MoDA program
officials:

    •    potentially overpaid 9 MIPRs by $124,195, and
    •    potentially underpaid 13 MIPRs by $318,892.

The remaining 34 MIPRs did not require adjustment. Without taking corrective action,
MoDA program officials risk augmenting MoDA’s or other DoD agencies’ appropriations,
which could result in Antideficiency Act violations.

In July 2012, MoDA program officials began taking action to develop policy and
implement procedures to obtain actual costs from other DoD agencies and perform
reconciliations. However, additional improvements are still needed to adjust final payment
amounts to the amount disbursed.

Estimated Cost and Reimbursement Process
MoDA program officials disbursed $8.7 million of their $19.3 million in estimated costs
between FY 2010 and FY 2012. Specifically, MoDA program officials reimbursed other
DoD agencies in advance for deployed civilians’ estimated premium pay, backfill, and
training costs. For premium pay and backfill costs, MoDA program officials stated they
estimated reimbursements using each civilian’s Standard Form 50, “Notification of
Personnel Action,” 6 and North Atlantic Treaty Organization Training Mission­
Afghanistan/U.S. Combined Security Transition Command-Afghanistan guidance on work
schedules. For training costs, program officials stated they estimated reimbursements
using the other agencies’ statements of work.

Once MoDA program officials estimated costs, they coordinated with Office of the Under
Secretary of Defense (Policy) Resource Management Office to issue MIPRs to those
agencies. Once a DoD agency accepted the MIPR, it received funds through a series of


6
  Office of Personnel Management Standard Form 50, “Notification of Personnel Action,” contains
information such as an individual’s pay plan, pay grade, base salary, locality adjustment, and total salary.

                                                       3

disbursements or all at once. Program officials also stated that each DoD agency
employing a civilian volunteer received a copy of the respective fiscal year’s MoDA
administrative policies memorandum, which included guidance on the deployed civilian’s
employment status, timekeeping responsibilities, and reimbursement for premium pay and
backfill costs.

Program Officials Relied on Other DoD Agencies to
Determine Final Payment Amounts
MoDA program officials did not develop adequate controls over the distribution of funds
to other DoD agencies. From FY 2010 to FY 2012, program officials did not request
actual-cost data and perform reconciliations to adjust $19.3 million in estimated premium
pay, backfill, and training costs to the final payment amounts. Instead, program officials
                                            relied on other DoD agencies to ensure estimated
      From FY 2010 to FY 2012,
                                            costs were accurately adjusted. Specifically,
   program officials did not request
                                            officials stated they relied on other DoD agency
     actual-cost data and perform
                                            personnel to identify and return excess funds.
        reconciliations to adjust
                                            However, Office of Management and Budget
  $19.3 million in estimated premium
                                            Circular A-123 “Management Responsibility for
   pay, backfill, and training costs to
                                            Internal Controls,” December 21, 2004, states
      the final payment amounts.
                                            management is responsible for establishing and
maintaining internal controls to achieve effective and efficient operations, reliable financial
reporting, and compliance with applicable laws and regulations.

Although MoDA program officials cited 10 U.S.C. § 2571, as their authority to reimburse
some of the deployed civilians’ costs, the authority does not include guidance on how to
execute advance payments between other agencies. Therefore, we used DoD Financial
Management Regulations (FMR) 7000.14-R as guidance for identifying internal controls
over advance payments between DoD agencies. Specifically, DoD FMR 7000.14-R,
Volume 11A, Chapter 3, “Economy Act Orders,” March 2012, requires advance payments
to be adjusted to the final payment amount to account for actual costs. Implementing
similar procedures to those that apply to Economy Act orders can reduce the risk of
augmenting appropriations. In August 2012, MoDA program officials began requesting
and receiving $3.8 million in actual-cost data reported by other DoD agencies and
reconciled 56 of the 118 MIPRs issued between FY 2010 and FY 2012 with an estimated
cost of $8 million.

Policies and Procedures Needed to Reconcile Actual
Costs to Final Payment Amounts
MoDA program officials did not develop and implement policies and procedures to obtain
actual-cost data, perform reconciliations, and adjust final payments made to DoD agencies.
Specifically, MoDA program officials did not develop policies that identified roles and
responsibilities for providing actual-cost data and performing reconciliations to adjust the
final payment amount. MoDA program officials also did not develop adequate procedures
to reconcile disbursements made to other DoD agencies for actual costs incurred, which
would identify the adjustment required for final payment.

                                              4

On July 2, 2012, the Director, Coalition Affairs and Partnership Programs within the
Office of the Deputy Assistant Secretary of Defense for Partnership Strategy and Stability
Operations issued a memorandum to the MoDA program office establishing a policy to
govern the distribution of MoDA program funds to other agencies. This policy included
roles and responsibilities for obtaining actual-cost data and performing reconciliations.
This memorandum stated that obtaining actual-cost data and performing reconciliations is
the responsibility of MoDA program officials. However, the administrative memorandum,
issued each fiscal year to the other DoD agencies, did not specify the roles and
responsibilities of the other DoD agencies to provide the cost data. MoDA program
officials should update the fiscal year administrative policy memorandum issued to other
DoD agencies so that it includes roles and responsibilities for providing actual-cost data for
deployed civilian premium pay and backfill. Furthermore, MoDA program officials
should develop a memorandum of agreement with other DoD agencies that includes the
roles and responsibilities for providing actual-cost data for training the deploying civilians.

During the audit, MoDA program officials took action to implement procedures
reconciling estimated to actual costs, but they need to make more improvements to
                                            accurately adjust final payment amounts. For
      MoDA program officials took
                                            example, MoDA program officials used the
     action to implement procedures
                                            amount committed, 7 or set aside to cover
     reconciling estimated to actual
                                            anticipated costs, to reconcile actual costs
    costs, but they need to make more
                                            reported by other DoD agencies. Although in
   improvements to accurately adjust
                                            some cases the amount committed may match
          final payment amounts.
                                            the actual amount disbursed, MoDA program
officials should use the actual amount disbursed to determine the final payment amount.
For example, MoDA program officials committed $165,353 to reimburse a DoD agency
for a deployed civilian’s premium pay. Program officials reconciled the committed
amount to the actual cost of $165,353 reported by the DoD agency, resulting in no
adjustment to the final payment. However, the actual amount disbursed to the DoD agency
was $143,688, which would require a $21,665 adjustment to the final payment, as of
November 12, 2012. MoDA program officials should develop and implement procedures
for reconciling disbursements to actual cost incurred to identify variances and make
adjustments to the final payments.

Increased Risk of Augmented Appropriations
MoDA program officials may have improperly paid 22 of 56 MIPRs issued between
FY 2010 and FY 2012. Specifically, MoDA program officials disbursed $8.7 million
through 118 MIPRs, of which only $3.6 million disbursed through 56 MIPRs were
reconciled to actual cost, as of November 2012. For the 56 MIPRs reconciled to actual
cost, disbursements for 34 were equal to the costs; the remainder showed potential
overpayment or potential underpayment. See Table 1 for the total net difference between



7
 A commitment is the amount reserved and budgeted by management to cover a specific cost. However, a
commitment does not represent a legal obligation to pay for goods or services.

                                                  5

funds disbursed by the MoDA program and actual cost reported by DoD agencies,
indicating adjustments may be needed to the final payment amounts.

                    Table 1. MoDA Disbursements Reconciled to Actual Cost
                          MIPRs         Total       Actual Cost      Net Potential
                          Issued      Disbursed      Reported         Adjustment
Potentially                  9        $682,811        $558,616         $124,195
Overpaid
Potentially                    13             1,371,198             1,690,090             (318,892)
Underpaid
Cost Equal to                  34             1,509,852             1,509,852                    0.0
Disbursements
Total                          56            $3,563,862*          $3,758,559*            $(194,698)*
*
    Mathematical differences are due to rounding.

See Appendix B for a list of the MIPRs potentially overpaid and underpaid as of
November 2012; these may require adjustments to the final payment amount.

The actual final payment amounts that require adjustment will remain unknown until
program officials can obtain actual-cost data and reconcile the remaining $5.1 million
disbursed through 62 MIPRs, with an estimated cost of $11.3 million. Once the actual-cost
data is obtained, MoDA program officials should reconcile the prior disbursements and
take action to adjust the final payment. See Table 2 for the total amount disbursed and
unreconciled by MoDA program officials for FY 2010 through FY 2012 and Appendix C
for a list of those MIPRs as of November 2012.

                                     Table 2. MoDA Disbursements

                                      Unreconciled by Fiscal Year

                                              MIPRs      Amount Disbursed
                                               Issued         (Million)
                                   *
                           FY 2010                1             $0.0
                           FY 2011               23               3.2
                           FY 2012               38               1.9
                           Total                 62             $5.1
                       *
                        No funds were disbursed on this MIPR. However, $46,403 in unliquidated
                       obligations remained on the MIPR, resulting in funds remaining available to the
                       DoD agency as of January 2013.

Until adequate policies and procedures are developed and implemented, MoDA program
officials will continue to be at an increased risk of augmenting MoDA’s or other DoD
agencies’ appropriations, which could result in Antideficiency Act violations. For
example, not reimbursing the actual costs of other DoD agencies may improperly augment
the overseas contingency operations appropriation used to fund the MoDA program in
Afghanistan. Furthermore, not returning funds disbursed in excess of the actual cost

                                                       6

incurred may augment the appropriations of the other DoD agencies. Augmenting
appropriations can violate Congress’s power of the purse by indirectly exceeding the
amount Congress has appropriated for the activity and is unallowable under 31 U.S.C.
§ 1341, commonly known as the Antideficiency Act.

Recommendations, Management Comments, and
Our Response
1.	 We recommend the Deputy Assistant Secretary of Defense Partnership Strategy
    and Stability Operations, in coordination with the Director, Defense Security
    Cooperation Agency:

       a. update the fiscal year administrative policy memorandum issued to other
       DoD agencies to include roles and responsibilities for providing actual-cost
       data; and

       b. develop a memorandum of agreement with other DoD agencies to include
       the roles and responsibilities for providing actual-cost data for training the
       deploying civilians.

Deputy Assistant Secretary of Defense for Partnership Strategy
and Stability Operations Comments
The Deputy Assistant Secretary of Defense for Partnership Strategy and Stability
Operations partially concurred with the recommendations. He stated the MoDA program
transferred to Defense Security Cooperation Agency in FY 2013; therefore, the MoDA
program at the Defense Security Cooperation Agency should issue the administrative
policy that includes roles and responsibilities for providing actual cost data and develop
memorandums of agreement with other DoD agencies.

Our Response
Comments from the Deputy Assistant Secretary of Defense for Partnership Strategy and
Stability Operations were partially responsive. We acknowledge that MoDA program
management responsibilities such as recruiting and training advisors, and managing the
global MoDA program transferred to Defense Security Cooperation Agency in FY 2013.
We also acknowledge the Defense Security Cooperation Agency is now responsible for
managing MoDA funding. However, the Deputy Assistant Secretary of Defense for
Partnership Strategy and Stability Operations remains responsible for providing policy
oversight and support for the MoDA program. In addition, the Office of the Under
Secretary of Defense for Policy remains responsible for obtaining and providing funds to
Defense Security Cooperation Agency for the MoDA program in Afghanistan. Therefore,
we request the Deputy Assistant Secretary of Defense for Partnership Strategy and
Stability Operations provide additional comments clarifying whether coordination
occurred with Defense Security Cooperation Agency and corrective actions were taken to
update the administrative policy and develop memorandum of agreements with other DoD
agencies for FY 2013 and beyond.


                                             7

2.	 We recommend the Deputy Assistant Secretary of Defense Partnership Strategy
    and Stability Operations, in coordination with the Director, Office of the Under
    Secretary of Defense (Policy) Resource Management Office:

       a. develop and implement procedures to obtain actual-cost data and reconcile
       funds disbursed through military interdepartmental purchase requests for
       deployed advisors’ premium pay, backfill, and training costs; and

       b. reconcile prior disbursements to actual premium pay, backfill, and training
       costs incurred by other DoD agencies and take the appropriate action
       necessary to adjust the final payment.

Deputy Assistant Secretary of Defense for Partnership Strategy
and Stability Operations Comments
The Deputy Assistant Secretary of Defense for Partnership Strategy and Stability
Operations partially concurred with the recommendations. He stated his office will work
with the Office of the Under Secretary of Defense (Policy) Resource Management Office
to obtain actual cost data and reconcile MoDA funds disbursed to other DoD agencies in
FY 2010 through 2012, to include taking the appropriate action to adjust final payment
amounts. However, for FY 2013 and beyond, he stated that the Defense Security
Cooperation Agency should develop and implement procedures to obtain actual cost data
and reconcile funds, because this agency became responsible for the MoDA program on
October 1, 2012.

Our Response
Comments from the Deputy Assistant Secretary of Defense for Partnership Strategy and
Stability Operations were partially responsive. We commend the Deputy Assistant
Secretary of Defense for taking steps to obtain actual-cost data and reconcile MoDA funds
disbursed to other DoD agencies in FY 2010 through FY 2012. However, as previously
stated, Deputy Assistant Secretary of Defense for Partnership Strategy and Stability
Operations remains responsible for MoDA program oversight and the Office of the Under
Secretary of Defense for Policy remains responsible for providing funds for the program in
Afghanistan. Therefore, we request the Deputy Assistant Secretary of Defense for
Partnership Strategy and Stability Operations provide additional comments clarifying
whether coordination occurred and corrective actions were taken to implement
recommendation 2.a for the MoDA program.




                                            8

Appendix A. Scope and Methodology
We conducted this performance audit from August 2012 through February 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence we obtained provides a reasonable basis for our finding and
conclusions based on our audit objective.

To accomplish our audit objective, we coordinated with or interviewed officials from the
MoDA program, Defense Security Cooperation Agency, Office of the Under Secretary of
Defense (Policy) Resource Management Office, and the Defense Finance and Accounting
Services. We obtained and reviewed 10 U.S.C. § 2571 “Interchange of Supplies and
Services”; 31 U.S.C. §1535 “Agency Agreements”; 31 U.S.C. §1341 “Limitations on
Expending and Obligation Amounts”; DoD FMR 7000-14-R, Volume 11A, Chapter 3,
“Economy Act Orders”; and U.S. General Accounting Office “Principles of Federal
Appropriations Law—Vol. II,” January 2004. We also reviewed MoDA program policies
for FY 2010 through FY 2012, to include administrative policies, and the “Policy to
Govern the Distribution of MoDA Program Funds,” July 2, 2012.

We obtained Management Analysis Briefing Package (MABP) 8 reports from the Office of
the Under Secretary of Defense (Policy) Resource Management Office for the 118 MIPRs
issued between FY 2010 and FY 2012. We also obtained all available actual-cost data
provided to MoDA program officials, which as of November 2012, included cost data for
42 MIPRs. Using the data provided, we reconciled the actual cost reported by other DoD
agencies to the disbursements reported in the MABP reports and identified variances. We
also identified and calculated the amount disbursed on the remaining 76 MIPRs without
actual-cost data as of November 2012.

Upon completing initial fieldwork, we coordinated with MoDA program and Office of the
Under Secretary of Defense (Policy) Resource Management Office personnel to address
concerns we observed during our audit. To validate factual accuracy, we also provided a
discussion draft to DoD officials discussed in the report.

Use of Computer-Processed Data
To perform this audit, we used MABP reports from the Washington Headquarters Services
Allotment Accounting System provided by Office of the Under Secretary of Defense
(Policy) Resource Management Office when re-creating the MoDA programs FY 2010
through FY 2012 reconciliation of MIPRs issued to other DoD agencies. We assessed the
reliability of the disbursements reported on 60 of the 118 MABP reports by obtaining
SF 1080s 9 from Electronic Document Access system to compare the amounts disbursed by


8
  The MABP includes the transaction dates and the amount committed, obligated, and disbursed on

each MIPR.

9
  An SF 1080 is used to document the transfer of funds from one DoD agency to another.


                                                    9

Defense Finance and Accounting Services to the amount reported on the MABPs. We did
not identify discrepancies between the amounts disbursed by Defense Finance and
Accounting Services and reported on the MABP reports.

To verify the actual-cost data reported by MoDA program officials in the reconciliation
spreadsheet, we obtained the supporting documents for the actual cost provided to the
MoDA program by other DoD agencies. We assessed the reliability of the amount
reported in the reconciliation by comparing the amount reported by the DoD agencies to
the amount reported by the MoDA program in their reconciliation. Although we identified
errors, such as transposed numbers and erroneous data entries, we determined that the
actual-cost data reported by MoDA program officials was sufficiently reliable for the
purpose of our audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and Inspector General for the U.S. Agency for
International Development (USAID) issued six reports on intra-agency transactions and
building institutional capacity. Unrestricted GAO reports can be accessed over the Internet
at www.gao.gov. Unrestricted DoD IG reports can be accessed at
www.dodig.mil/audit/reports. Unrestricted USAID IG reports can be accessed at
www.usaid.gov/oig/public.

GAO
GAO Report No. GAO-11-907, “Afghanistan Governance Performance-Data Gaps Hinder
Overall Assessment of U.S. Efforts to Build Financial Management Capacity,”
September 20, 2011

DoD IG
DoD IG Report No. DODIG-2013-019, “Defense Institution Reform Initiative Program
Elements Need to Be Defined,” November 9, 2012

DoD IG Report No. DODIG-2013-005, “Performance Framework and Better Management
of Resources Needed for the Ministry of Defense Advisors Program,” October 23, 2012

DoD IG Report No. SPO-2011-003 “Assessment of U.S. Government Efforts to Train,
Equip, and Mentor the Expanded Afghan National Police,” March 3, 2011

DoD IG Report No. D-2010-062, “Controls Over Funds Appropriated for Assistance to
Afghanistan and Iraq Processed Through the Foreign Military Sales Network,”
May 24, 2010

USAID IG
USAID Report No. F-306-11-001-S, “Review of USAID/Afghanistan’s Ministerial
Assessment Process,” November 6, 2010


                                            10

Appendix B. Potential Adjustments to Military

Interdepartmental Purchase Requests (MIPR)

                           Potentially Overpaid
        MIPR                  Amount              Actual Cost   Net Difference
       Number                Disbursed
    DSAM10277                  $3,545                  $1,333       $2,212
    DSAM10282                  12,873                  12,718          155
    DSAM10545                   5,382                   2,584        2,798
    DSAM10546                  11,832                   5,668        6,164
    DSAM20213                   3,945                   2,996          949
    DSAM20263                 129,281                 117,000       12,281
    DSAM20264                 122,942                  87,094       35,848
    DSAM20274                 245,402                 205,000       40,402
    DSAM20662                 147,609                 124,223       23,386
    Total                    $682,811                $558,616      $124,195


                          Potentially Underpaid

       MIPR                 Amount                Actual Cost   Net Difference
      Number               Disbursed
    DSAM10283              $216,500                $218,000        ($1,500)
    DSAM10444               570,292                 576,500         (6,208)
    DSAM10692                  5,449                  7,500         (2,051)
    DSAM10693                      0                 15,050        (15,050)
    DSAM20212                      0                 10,058        (10,058)
    DSAM20248                      0                145,000       (145,000)
    DSAM20249               113,469                 121,774         (8,305)
    DSAM20269               143,688                 165,353        (21,665)
    DSAM20271               136,031                 182,382        (46,351)
    DSAM20272               125,584                 146,696        (21,112)
    DSAM20348                42,970                  48,025         (5,055)
    DSAM20843                    807                 23,627        (22,820)
    DSAM21086                16,408                  30,126        (13,718)
    Total                  $1,371,198             $1,690,090*    ($318,892)*
    *
     Mathematical differences are due to rounding.



                                             11
Appendix C. Unreconciled Military
Interdepartmental Purchase Requests (MIPR)
    MIPR            Accepting Agency              Estimated    Amount
   Number                                           Cost      Disbursed
 DSIA00198   Washington Headquarters Services      $46,403         $0
 DSAM10167    United States Property and Fiscal    275,000    275,000
                     Office for Indiana
 DSAM10362       Headquarters Marine Corps         236,736    106,257
 DSAM10363           Civilian Personnel             96,176     96,176
                   Management Services
 DSAM10370        Office of the Director of        96,176      96,176
              Administration and Management
 DSAM10371     Defense Commissary Agency           148,320    148,320
 DSAM10372    Office of the Under Secretary of      66,344     65,370
             Defense (Personnel & Readiness)
 DSAM10383   U.S. Air Force, Bamberg Resource      81,976      81,976
                    Management Office
 DSAM10396           United States Army            81,976      81,976
                     Reserve Command
 DSAM10509      Comptroller, Navy Medicine         81,711      81,711
                    Information Systems
                      Support Activity
 DSAM10513        Headquarters U.S. Africa         58,058      43,548
                    Command, Resource
                    Management Office
 DSAM10514       Defense Logistics Agency,         77,427      77,427
                      Finance, Aviation
 DSAM10627         Headquarters Air Force          35,388      35,388
 DSAM10629          Defense Information            32,490      32,490
                      Security Agency
 DSAM10630   Air Force Nuclear Weapons Center      24,606      24,484
 DSAM10631   Naval Surface Force–U.S. Pacific      32,482      23,370
                      Fleet Commander
 DSAM10634         U.S. Africa Command,            30,156           0
                    Resource Directorate
 DSAM10637    Defense Finance and Accounting       30,039      30,039
                    Service–Indianapolis



                                   12

             Unreconciled MIPRs Continued

  MIPR             Accepting Agency              Estimated    Amount
 Number                                             Cost     Disbursed
DSAM10639          Department of Defense           61,369      60,022
                     Education Activity
DSAM10640          Army Support Activity           28,528      17,975
                        Legal Office
DSAM10662             Naval Facilities             26,761      26,761
                   Engineering Command
DSAM10817       Naval Postgraduate School          200,000     160,521
DSAM10881      U.S. Joint Forces Command           191,293     191,293
DSAM10939    United States Property and Fiscal   2,305,281   1,458,578
                     Office for Indiana
DSAM20054           Defense Finance and           133,707     120,564
                    Accounting Services
DSAM20112         Document Automation &            10,000       7,481
                     Production Service
DSAM20139             Naval Facilities             57,095      43,390
             Engineering Command, Atlantic
DSAM20147      Naval Post Graduate School         195,000      68,174
DSAM20228    Office of the Under Secretary of     120,146      90,801
             Defense (Personnel & Readiness)
DSAM20229       Defense Civilian Personnel        174,614          0
                     Advisory Services
DSAM20230   Washington Headquarters Services      174,614           0
DSAM20231     Defense Commissary Agency           120,149      35,716
DSAM20239   Defense Logistics Agency, Finance,    214,089      75,245
                          Aviation
DSAM20241   Navy Medicine Information System       75,337      74,583
                      Support Activity
DSAM20244         Department of the Army          173,006          0
DSAM20245       Program Executive Office–         219,647     219,647
                   Enterprise Information
                    Systems, Biometrics
               th
DSAM20246   175 Financial Management Center       226,938           0
DSAM20250    Naval Special Warfare Command        222,662     183,931
DSAM20266       Program Executive Office–         143,921      60,140
                   Stimulation, Training,
                    and Instrumentation


                                   13

                         Unreconciled MIPRs Continued

       MIPR                       Accepting Agency            Estimated      Amount
      Number                                                    Cost        Disbursed
    DSAM20267               Joint Guam Program Office          217,538             0
    DSAM20268                   Defense Information            165,392        93,145
                                  Systems Agency
    DSAM20270                 Headquarters Air Force           216,295       216,295
    DSAM20273                  U.S. Africa Command             184,120             0
    DSAM20349               Navy Installations Command          59,548        59,548
    DSAM20350                 Defense Security Service         204,982             0
    DSAM20600                    Defense Technical             171,337       148,231
                                 Information Center
    DSAM20651             U.S. Army Medical Department,        142,858       142,858
                            Madigan Healthcare System
    DSAM20663              U.S. Army Network Enterprise         98,806        98,806
                               Technology Command
    DSAM20664            U.S. Army Deputy Chief of Staff,       97,833        58,177
                                     G-8 Office
    DSAM20844             United States Property and Fiscal     10,945             0
                                  Office for Indiana
    DSAM20883             United States Property and Fiscal    2,542,453           0
                                  Office for Indiana
    DSAM21081                     Headquarters U.S.             23,461        14,244
                                  Africa Command
    DSAM21082              Naval Seas Systems Command           40,248        40,248
    DSAM21083                       Directorate of              47,549             0
                               Resource Management
    DSAM21084              Naval Sea Systems Command            45,466        45,466
    DSAM21085              Defense Commissary Agency            33,062        13,158
    DSAM21088                 Missile Defense Agency            45,466             0
    DSAM21101                  U.S. Army Installation           25,225             0
                              Management Command
    DSAM21109               Naval Post Graduate School           86,500            0
    DSAM21111               Naval Post Graduate School           62,500            0
    DSAM21121               Naval Post Graduate School           94,000            0
    DSAM21133            U.S. Army Combined Arms Center          30,633       20,317
    Total                                                     $11,251,838   $5,145,024*
*
    Mathematical differences are due to rounding



                                                   14
Deputy Assistant Secretary of Defense for Partnership
Strategy and Stability Operations Comments




                  Click to add JPEG file




                              15
Click to add JPEG file




               16
